                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: Al2090062                                                                     Page 1 of 1



                  NSF 010 received an allegation of plagiarism in an NSF proposal. 1 Our analysis
          identified allegedly copied verbatim text from two sources.

                  We contacted the Subject2 regarding the allegation. Based on his response, we
          determined text from one of the sources we had identified as copied should be excluded from
          further review. We could not however exclude the other source; though the Subject did list this
          source in the reference section, he did not properly cite to that reference in the body of the
          proposal.

                 Based on the now minimal amount of material lacking adequate citation, we determined
          the matter is best resolved by sending the Subject a Questionable Research Practice letter
          reminding him of the need to adequately cite material within NSF proposals.

                    Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (I 1/02)
